FILED

JUL 2 3 2021
OFFICE OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

KENAN IVERY — PETITIONER, pro se
vs.

STATE OF OHIO — RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO THE
OHIO COURT OF APPEALS, NINTH APPELLATE DISTRICT

PETITIONER’S MOTION FOR WRIT OF CERTIORARI

KENAN IVERY, #A674-145
TRUMBULL CORRECTIONAL INSTITUTION
P.O. BOX 901
LEAVITTSBURG, OHIO 44430-0901
PHONE. NO. N/A

DAVID YOST, ESQUIRE
OHIO ATTORNEY GENERAL
150 E. GAY STREET, 16™ FL.
COLUMBUS, OHIO 43215
PHONE NO. (614) 466-4986

RECEIVED
-JUN-2-9-2021OFFICE OF THE CLERK
SUPREME court, u.s.

QUESTIONS PRESENTED
FIRST QUESTION PRESENTED FOR REVIEW:
IS A PETITIONER DENIED DUE PROCESS OF LAW WHEN HE IS
CONVICTED FOR OFFENSES OF WHICH THERE WAS INSUFFICENT
EVIDENCE PRESENTED AT TRIAL TO HAVE FOUND HIM GUILTY
BEYOND A REASONABLE DOUBT OF EVERY ESSENTIAL ELEMENT OF
THE OFFENSES?
SECOND QUESTION PRESENTED FOR REVIEW:
IS A PETITIONER DENIED DUE PROCESS OF LAW WHEN A TRIAL
COURT IMPROPERLY REMOVES A PETIT JUROR WITHOUT SHOWING
ADEQUATE CAUSE?

LIST OF PARTIES
[X]

All parties appear in the caption of the case on the cover page.

■/

[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

TABLE OF CONTENTS
OPINIONS BELOW

a

JURISDICTION

b

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

c

STATEMENT OF THE CASE

1

REASONS FOR GRANTING THE WRIT
I.

II.

THE COURT SHOULD GRANT THE WRIT BECAUSE
PETITIONER WAS DENIED DUE PROCESS, WHERE
THERE WAS INSUFFICENT EVIDENCE PRESENTED
AT TRIAL TO HAVE FOUND HIM GUILTY BEYOND A
REASONABLE DOUBT OF EVERY ESSENTIAL
ELEMENT OF AGGRAVATED MURDER, MURDER, AND
ATTEMPTED MURDER................................................ ...........

13

THE COURT SHOULD GRANT THE WRIT BECAUSE
THE PETITIONER WAS DENIED DUE PROCESS OF
LAW WHEN THE TRIAL COURT IMPROPERLY
REMOVED PETIT JUROR RON BARNES WITHOUT
SHOWING ADEQUATE CAUSE.....................................

24
29

CONCLUSION
INDEX TO APPENDICES

APPENDIX A — Decision of the Ohio Ninth District Court of Appeals, State v. Ivery
2020-Ohio-3349, Case No. 28551.
APPENDIX B - Decision of the Ohio Supreme Court, State v. Ivery 2021-0hio-1201,
Case No. 2021-0154.

i

TABLE OF AUTHORITIES CITED
PAGE NUMBER

CASES
Austin v. United States, 382 F.2d 129 (1967)

19

Berk v. Matthews, 53 Ohio St. 3d 161 (1990)

24

Cavazos v. Smith, 565 U.S. 1 (2011)

14

Fiore v. White, 531 U.S. 225 (2001)

13

In re Winship, 397 U.S. 358 (1970)

13

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781,
61 L.Ed.2d 560 (1979)............................................

14

Lingafelter v. Moore, 95 Ohio St. 384 (1917)

24

McHam v. State, 2005 OK CR 28

20

McNeil v. Cuyler, 872 F.2d 443 (3rd Cir. 1986)

20

Mullaney v. Wilbur, 421 U.S. 684, 704 (1975)

18

Renico v. Lett, 559 U.S. 766 (2010)

14

State v. Adams, 62 Ohio St. 2d 151 (1980)

24

State v. Ivery, 2020-Ohio-3349

16, 28

State v. Jenks, 61 Ohio St.3d 259, 574 N.E.2d 492 (1991)

14

State v. Moss (9th Dist.), 2009-Ohio-3866

25, 28

State v. Nelson (8th Dist.), 2017-Ohio-5568

18

State v. Walker, 150 Ohio St. 3d 409 (2016)

14, 16

Taylor v. Louisiana, 419 U.S. 522 (1975)

24

United States v. Frady, 456 U.S. 152 (1982)

19

United States v. Guyon, 7I7'F.'2d‘1536'(6th'Cir. 1983)

-19

ii

STATUTES AND RULES
18 USCS § 1112

18

O.R.C. § 2901.22(A)

15

O.R.C. § 2903.01(A)

14, 16

R.C. § 2903.02(A)

20, 21

R.C. § 2903.02(B)

21

O.R.C. § 2903.03

18

O.R.C. § 2923.02

23

O.R.C. § 2945.25

24

USCS Supreme Court Rule 10

13

OTHER
Fifth Amendment to the U.S. Constitution,

13

Fourteenth Amendment to the U.S. Constitution

13, 24

Sixth Amendment to the U.S. Constitution

24

iii

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the Unites States court of appeals appears at Appendix
to the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United states district court appears at Appendix
the petition and is

to

or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[X] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A to the petition and is
[X] reported at State v. Ivery, App. Case No. 28551, 2020-Ohio-3349; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Ohio Supreme Court appears at Appendix B to the petition
and is
[X] reported at State v. Ivery, Case No. 2021-0154, 2021-0hio-1201; or,
[ ] has been designated for publication but is not yet reported; or,
'[" ] is unpublished.
——
------- —— —— a

JURISDICTION

[ ]

For cases from federal courts:
The date on which the United States court of appeals decided my case was

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date:____________
order denying rehearing appears in Appendix
[ ] An extension of time to file the petition for writ of certiorari was Granted
(date)
(date) on
to and including_____
in Application No.__ A.
The jurisdiction of this Court is invoked under U.S.C. § 1254(1).

[X]

For cases from state courts:
The date on which the highest state court decided my case was April 13,
2021.
A copy of that decision appears at Appendix B.
[ ] A timely petition for rehearing was thereafter denied on the following
and a copy of the order denying rehearing
date:
appears at Appendix__ .
[ ] An extension of time to file the petition for writ of certiorari was Granted
(date)
(date) on
to and including_____
in Application No.__ A.
The jurisdiction of this Court is invoked under U.S.C. § 1257(A).
\

b

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Involved herein are Amendments V, VI, and XIV to the United States
Constitution:
Amendment V:
“No person shall be deprived of life, liberty, or property, without the due process of
law...”
Amendment VI:
“In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and district wherein the crime shall
have been committed...”
Amendment XIV:
“...No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person
of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.”

c

STATEMENT OF THE CASE
On November 15, 2014, the Petitioner, Kenan Ivery, was involved in an
altercation at Papa Don’s Pub in Akron, Ohio, which resulted in the shooting death
of Justin Winebrenner, and the injuring of David “Big Dave” Wokaty, Jennifer Imhoff,
Michael Capes, and Thomas Russell. Also involved in the altercation was David
Eisele.

All of these individuals were patrons of Papa Don’s that evening.

Winebrenner and Russell were off-duty police officers, but not acting in any capacity
as officers that evening. (Tr. 3344-45, 2810) All of the individuals directly involved
in the case are Caucasian, with the exception of Ivery, who is African-American.
Winebrenner was transported from Papa Don’s to the hospital where he was
pronounced dead. (Tr. 3506) The cause of death was determined to be “gunshot
wounds to his torso.” (Tr. 3487) A forensic toxicology report indicated Winebrenner
had been legally intoxicated with a blood alcohol level of 0.139. (Tr. 3509, 3512)
As a result, Ivery was indicted on the following counts: Count 1, aggravated
murder under R.C. 2903.01(A) of Justin Winebrenner, unclassified felony, with a
death penalty specification under R.C. 2929.04(A)(5), a peace officer specification
under R.C. 2941.1412, and a firearm specification under R.C. 2941.145; Count 2,
murder under R.C. 2903.02(A) of Justin Winebrenner, unclassified felony, with a
peace officer specification under R.C. 2941.1412, and a firearm specification under
R.C. 2941.145; Count 3, murder under R.C. 2903.02(B) of Justin Winebrenner,
unclassified felony, with a peace officer specification under R.C. 2941.1412, and a
firearm specification under R.C. 2941.145; Count 4, felonious assault under R.C.

1

2903.11(A)(2) of Justin Winebrenner, first degree felony, with a peace officer
specification under R.C. 2941.1412, and a firearm specification under R.C. 2941.145;
Count 5, attempted murder under R.C. 2903.02(A)/2923.02 of David Wokaty, first
degree felony, with a firearm specification under R.C. 2941.145; Count 6, attempted
murder under R.C. 2903.02(A)/2923.02 of Jennifer Imhoff, first degree felony, with a
firearm specification under R.C. 2941.145; Count 7, attempted murder under R.C.
2903.02(A)/2923.02 of Michael Capes, first degree felony, with a firearm specification
under R.C. 2941.145; Count 8, attempted murder under R.C. 2903.02(A)/2923.02 of
Thomas Russell, first degree felony, with a firearm specification under R.C. 2941.145;
Count 9, attempted murder under R.C. 2903.02(A)/2923.02 of David Eisele, first
degree felony, with a firearm specification under R.C. 2941.145; Count 10, felonious
assault under R.C. 2903.11(A)(2) of David Wokaty, second degree felony, with a
firearm specification under R.C. 2941.145; Count 11, felonious assault under R.C.
2903.11(A)(2) of Jennifer Imhoff, second degree felony, with a firearm specification
under R.C. 2941.145; Count 12, felonious assault under R.C. 2903.11(A)(2) of Michael
Capes, second degree felony, with a firearm specification under R.C. 2941.145; Count
13, felonious assault under R.C. 2903.11(A)(2) of Thomas Russell, first degree felony,
with a peace officer specification under R.C. 2941.1412, and a firearm specification
under R.C. 2941.145; Count 14, felonious assault under R.C. 2903.11(A)(2) of David
Eisele, second degree felony, with a firearm specification under R.C. 2941.145; Count
15, having weapons while under disability under R.C. 2923.13(A)(3), third degree
felony; Count 16, carrying a concealed weapon under R.C. 2923.13(A)(2), fourth

2

degree felony; Count 17, illegal possession of a firearm in a liquor premises under
R.C. 2923.121, third degree felony; and Count 18, tampering with evidence under
R.C. 2921.12(A)(1), third degree felony. Prior to trial, at the State’s request, Counts
6, 7 and 8 were dismissed by the trial court, and Counts 9-18 were renumbered to
Counts 6-15. (Tr. 3950-53)
Ivery pleaded not guilty to all charges and the case proceeded to trial, where
the State of Ohio presented numerous witnesses, some of whom provided the
following testimonies.
Ann Marie Kuzio was also a patron at Papa Don’s. She was there with friends,
including her boyfriend Revawn Wilson. While sitting at the bar she began to be
spoken to by Ivery, who “just kept wanting me to come over there and talk to him.”
(Tr. 2406) After she had pointed out her boyfriend to Ivery he responded, “I don’t
care. I have a 40.” (Tr. 2406) She assumed he was talking about beer (Tr. 2407),
although there is nothing in the record to show that Ivery every ordered or possessed
a 40-ounce beer that night. She left Ivery and ran to Wilson and Tiffany Miller, the
manager of Papa Don’s, to tell them “how aggressive I felt that [Ivery] was being and
that it made me nervous.” (Tr. 2408) She testified that when Ivery saw her talking
to Miller he came over angry. (Tr. 2408-09) Her next recollection was seeing Ivery
having returned and being confronted by “Big Dave” Wokaty, who loudly told Ivery,
“Don’t ever touch her or speak to her ever again.” (Tr. 2415, 2443) Kuzio stated that
Ivery never touched her. (Tr. 2444) She witnessed Miller “just trying to calm Dave

3

down and just tell him to just let it go.” (Tr. 2415, 2444-45) At that point Wilson
called her back over to their table. (Tr. 2416-17)
Another bar patron, Natalie Linn, observed Ivery “intoxicated, just talking,
trying to hit on a lot of girls, just trying to buy drinks for everyone...Wasn’t really
acting like mean or angry at this point during the night, just trying to hit on people.”
(Tr. 2878) She described his reaction to being rebuffed by Kuzio as “angry, says that
he has a 40, starts kind of laughing.” (Tr. 2881) Linn then testified that, “After the
shooting I just put two and two together not thinking that it was a 40 of beer, thinking
that it was a .40-caliber.” (Tr. 2904)
Bar manager Tiffany Miller testified that she and her fiance, Justin
Winebrenner, went to the pub that evening to hang out with friends. (Tr. 2299)
According to Miller, her friend Kuzio approached Miller and told her that Ivery made
comments to her that made her feel uncomfortable. (Tr. 2310) Miller said that she
was then approached by Ivery who was “yelling. He’s angry. He was loud.” (Tr.
2912) About five minutes later Miller asked Ivery to leave. (Tr. 2315) During the
time Miller was talking to Ivery, Winebrenner approached and asked her if she was
okay, to which she affirmatively responded, and testified that, “I didn’t want him to
get involved. I didn’t want Kenan to feel like there was more than just myself asking
him to leave.” (Tr. 2317) Miller then asked the bartender to bring Ivery his check
and a box for chicken wings he had ordered but not yet eaten. (Tr. 2320) She said
Ivery then “offered to buy me a drink and resolve this situation, to which I declined.”

4

(Tr. 2321) Miller then witnessed Ivery leave the bar alone, unforced and under his
own accord at 1:45 am. (Tr. 2322, 2328)
Miller saw Ivery reentering the bar at about 1:53 am. (Tr. 2332, 2366) She
testified that she immediately approached him and asked him to leave. (Tr. 2332)
She recalled that “[Ivery’s] not as angry, he’s not as visibly upset. He’s more calm.”
(Tr. 2333, 2367) As she was telling Ivery to leave “Big Dave” Wokaty came up beside
her asking if she needed assistance, to which she assured him she did not. (Tr. 2335)
As Wokaty confronted Ivery Miller saw Ivery flash a gun in the top of his pants and
went to Winebrenner for assistance. (Tr. 2337) She saw Winebrenner and “[a] few
other bar patrons realize what seems to be going on and come over to help as well, at
which point I can see him reach for the gun.” (Tr. 2338) Upon seeing the gun being
drawn she ducked out of the way and “didn’t see anything after that.” (Tr. 2339)
“Big Dave” Wokaty is well over 6’ tall and weighed 386 lbs. at the time. He
worked part-time as a bouncer at another bar, but was not employed by Papa Don’s
Pub in that or any other capacity. (Tr. 2503-04) Wokaty had noticed the initial
confrontation between Ivery and Miller, and had become aware that she had kicked
bim out. (Tr. 2512-13) He testified that he observed Ivery walk up and say something
to Winebrenner on his way out of the bar, but did not hear what was said nor see
Winebrenner respond. (Tr. 2516-18) Wokaty claimed that upon seeing Ivery return
to the bar Tiffany approached him and said Ivery “needs to leave...he’s not welcome
here,” at which point Wokaty told him, “You’re going to have to leave. Nobody wants
you here. You know, you’re not welcome here.” (Tr. 2520-21) He did not see recall

5

seeing Ivery with a gun at that point.

(Tr. 2522)

He clearly remembered

Winebrenner then coming up and putting hands on Ivery. (Tr. 2523-24) He did not
see Dave Eisele join them. (Tr. 2524) He then remembered “all of a sudden like this

mass of people, Mr. Ivery, Justin, myself and Tiffany included, all just start like
moving toward the door area of the bar, at which that point I was shot in the arm and
it kind of knocked me back.” (Tr. 2525) Wokaty was injured by a single shot that
went through his arm and then entered and exited his lower back. (Tr. 2526-27)
While being treated at the hospital for his wounds, a blood alcohol test was
administered and returned a reading of 0.131 — “more than one and a half times the
legal limit for intoxication.” (Tr. 2552)
David Eisele is 6’2” and weighs about 215 lbs. (Tr. 3336) He testified that
Ivery walked backed into Papa Don’s at a normal pace, not cursing or yelling, with
nothing in his hands. (Tr. 3342) Once Ivery had returned inside, Eisele observed
“Big Dave” Wokaty standing in Ivery’s way. (Tr. 3343) Eisele testified that he then
“saw [Ivery] start fiddling around with something on his side. I remember saying to
my friend -- he kind of pulled his shirt up a little bit each time - ‘Is that a phone or
is that a gun?”’ (Tr. 3317, 3344) He became convinced “It was a gun. You could see
the butt of it sticking out.” (Tr. 3319) Eisele then observed that “Winebrenner went
over and was confronting him.” (Tr. 3321) Eisele admitted that the video showed
Ivery stepping back with nothing in his hand. (Tr. 3345) Eisele initially testified
that he started to walk towards Ivery, at which point he “saw him pull a gun, and he
had a gun in his right hand.” (Tr. 3320) But upon reviewing surveillance video from

6

the bar that Eisele agreed showed Ivery surrounded by Wokaty, Winebrenner and
himself, Eisele acknowledged that no shots had been fired at that point. (Tr. 334748) Eisele admitted that he then “grabbed Pvery’s] arm, and we kind of shoved him
into the inflatable Browns guy...and it was almost just like a big dog pile. And I
remember falling down by the front door and hearing a shot.” (Tr. 3321) Eisele
agreed with the defense’s summation that “you grab Mr. Ivery along with maybe some
pushing and shoving from Mr. Winebrenner and Mr. Wokaty, and you pull him back,
you hear a yell, then you hear the first shots.” (Tr. 3351)
Revawn Wilson, Kuzio’s boyfriend, saw Ivery return to Papa Don’s, thinking
maybe he had forgotten something. (Tr. 2471) He saw “Big Dave” Wokaty telling
Ivery to leave. (Tr. 2472) The next thing he remembered was seeing a scuffle, though
he did not see how it started. (Tr. 2474, 2480) He saw Ivery “pushed back over a
table; just tripping back over the table.” (Tr. 2482) After that he then began hearing
“pops” and seeing “the flash of a gun.” (Tr. 2474, 2482)
Chad Sprague was another bar patron and also a friend of Kuzio. (Tr. 3002)
Sprague observed that “Big Dave” Wokaty “proceeded to tell Kenan that he needed
to leave Ann Marie the ‘F alone, and so they started kind of talking back and forth.”
(Tr. 3011) He testified that “the next thing I remember, there was a lot of commotion
and people struggling... and that’s when I saw the first shot.” (Tr. 3012-13)
Jeffrey Bates worked as the “bar back” at Papa Don’s. (Tr. 3361) He recalled
that earlier in the evening Miller had “asked for a to-go box” for Ivery, and that “[i]t
looked like he was leaving on his own accord to me.” (Tr. 3371) Bates missed the

7

initial commotion, but upon hearing a shot “turned around quick and I see Kenan and
Justin rushing outside tied up together as if they were wrestling, like high school
wrestling.” (Tr. 3386) He then “heard a shot, and they started to fall and the gun
flew free, and then Dave [Eisele] was flying through the air as if he was Superman.”
(TR. 3386-87) Bates picked up the gun and tossed it into a trash hopper to secure it
until authorities arrived. (Tr. 3388)
Of those injured in the shooting, Jennifer Imhoff testified to having no clear
memory of that night. (Tr. 2633) She was shot in the left arm, although there was
no internal injury. (Tr. 2637) EMS took her to the hospital where she was treated
and released. (Tr. 2637) Thomas Russell was not directly involved in the altercation
that led to the shooting, and testified that he did not see much of what went on that
night. (Tr. 2834) He was grazed by a bullet from one of the shots fired, but did not
require medical attention. (Tr. 2828, 2831) Michael Capes testified that he saw
“three or four” “people coming together in a little bit of a hostile way.” (Tr. 3124-25)
He answered with certainty that there was a scuffle before he heard gunfire. (Tr.
3126) Capes watched “the whole pile of people moving that way [towards the door],
and I saw like flashes out of it.” (Tr. 3127) When asked “the position of the shooter
when the gun went off,” he testified that Ivery “was falling down.” (Tr. 3128) Capes
“heard the shots and saw some muzzle flashes and...noticed my foot hurt.” (Tr. 310506) He “looked down and saw the hole in my boot.” (Tr. 3108) Capes was taken by
EMS to the hospital where x-rays revealed three broken metatarsals...a big entrance
and exit wound.” (Tr. 3112-13)

8

Ivery’s trial counsel presented an affirmative defense that in firing four shots
Ivery was acting in self-defense. Testifying on his own behalf, Ivery recalled getting
to Papa Don’s around 12:15-12:30 am. (Tr. 3733) He considered himself a regular
there. (Tr. 3731) While there, Ivery ordered wings and drinks for himself and some
females sitting at the bar. (Tr. 3735-36) Ivery admitted to offering to buy a drink for
Kuzio, which she declined, and threatened to get her boyfriend. (Tr. 3740) Ivery
stated that he “felt it was kind of threatening because I just asked her for a drink.
And I say, ‘I have a 40 on me.’” (Tr. 3741) This was in reference to a .40-caliber pistol
Ivery admits to having brought into the bar with him when he first arrived. (Tr.
3741) Asked why he was carrying a gun that night, Ivery testified it was “[fjor
personal protection. And because my brother was murdered in 2011 and I’ve been
robbed two times.” (Tr. 3732)
Ivery witnessed Kuzio take off running to “a table with a black man [Revawn
Wilson] and she get to pointing.” (Tr. 3742) Ivery proceeded to head over to the table
“to make sure everything was kind of cool” and when he got to the table Tiffany Miller
was there. (Tr. 3742-43) After several minutes of discussion over what Ivery had
allegedly said to Kuzio, Miller let it be known to Ivery that she believed Kuzio and
wanted him to leave. (Tr. 3743-46) Ivery expressed that at the time he felt “more
kind of shocked...a little disappointed, but that’s about it.” (Tr. 3746) Ivery informed
Miller that he needed a box for his uneaten wings. (Tr. 3746) He proceeded to sit at
the bar waiting to pay his tab and collect his wings. (Tr. 3746-48) After paying his
tab Ivery left. (Tr. 3748-49) On his way out, Ivery stopped at a table where Justin

9

Winebrenner was sitting to ask if he heard Ivery “call anybody a bitch.” (Tr. 3751)
He was not sure of Winebrenner’s response, but believes it may have been, “Nah.”
(Tr. 3752) Ivery then exited Papa Don’s and got in his car to head home. (Tr. 3753)
A mile or so from the bar Ivery realized that he had forgotten his wings at the
bar, and turned around to go back for them. (Tr. 3755) Before going back into Papa
Don’s Ivery retrieved several phones out of his car. (Tr. 3758-59) Ivery admitted to
still having the gun in his waist, which was covered up with his shirt and jacket. (Tr.
3762) Ivery testified that upon reentering the bar he “was about to proceed to ask
Tiffany if my wings was at the bar.” (Tr. 3768) But Ivery was halted by “Big Dave”
Wokaty, who had stepped in his way, warning him, “Don’t fucking touch her or talk
to her again or I’ll kick your black ass.” (Tr. 3768-69) Ivery stepped back as Miller
stepped in between the two men. (Tr. 3769, 3854) As Miller attempted to calm down
Wokaty (not Ivery), Ivery lifted up his jacket to display his gun and let Wokaty know
he was armed. (Tr. 3770) He reasoned that Wokaty was “threatening me. Look, he’s
big, and I didn’t want no problems.” (Tr. 3849) Ivery continued to back up from the
hostile Wokaty and flashed his gun twice more. (Tr. 3771-72) Ivery had not pulled
his weapon at that point, or was even touching it. (Tr. 3772, 3848, 3853)
Ivery testified that this is when Winebrenner approached him from Ivery’s left
side “with his hands out” and “immediately put his hands on me.” (Tr. 3775, 3861)
He felt Winebrenner touching him “kind of like my waist” where the gun was located.
(Tr. 3776) Shortly thereafter David Eisele joined the confrontation, causing Ivery to
feel “fear.” (Tr. 3777-78) No shots had been fired. (Tr. 3779) Winebrenner then

10

began grabbing Ivery who was being “Mind of forced backwards.” (Tr. 3780) Next
Ivery felt Eisele “[t]ouching me, grabbing me,” and soon after Ivery was “almost being
thrown over a table.” (Tr. 3780) Ivery had still fired no shots, but testified to
believing he was being “assaulted.” (Tr. 3781) Ivery testified that it was at this point
he drew out his gun, “Because they was reaching and I didn’t want them to get it,”
fearing that, “They will take it and kill me.” (Tr. 3781, 3864) He added that, “This is
when I’m surrounded. That’s when Eisele grabs me. That’s when it kind of comes
out. Eisele, he’s grabbing me with the gun in my hand like he’s trying to get it. He’s
already pushing me.” (Tr. 3865) Ivery recalled letting out a scream as he was falling
backwards: “I feared that once I was fallen, that’s when my fear hit its highest point
and that’s when I screamed. (Tr. 3783-85) Regarding the four shots subsequently
fired, Ivery testified that he “never aimed. I was falling...I’m falling to the ground
when the first shot is fired...I was scared...I couldn’t see, my glasses is off, and I’m
getting bum rushed and they was trying to get my gun.” (Tr. 3866-67) He added
that, “I wasn’t trying to shoot anyone. I was scared; flat out scared. That’s all, man.
There wasn’t no intention for him or nothing. I was scared. And that’s why I let out
that scream. I was scared.” (Tr. 3869) Ivery remembered tumbling outside of the
bar and the gun falling away from him, and then “I take off running because I was
scared they would shoot me with my gun.” (Tr. 3784-85)
After the multi-day trial the jury found Ivery guilty of all counts, with the
exception of renumbered Count 15, including the death penalty specification attached
to Count 1. Upon further deliberation the jury recommended a sentence of life

11

without parole. After merging some of the counts and specifications, the trial court
sentenced Ivery to an additional prison term of sixty-five years, along with a
mandatory five-year period of post-release control.
Ivery filed a timely notice of appeal and was appointed appellate counsel. His
counsel raised four assignments of error which the Ohio Ninth District Court of
Appeals either overruled or declined to address. See State v. Ivery, App. Case No.
28551, 2018-Ohio-2177 (“Ivery F). On appeal of that decision the Ohio Supreme
Court declined to accept jurisdiction for non-specific reasons under Ohio S.Ct.Prac.R.
7.08(B)(4).1 See State v. Ivery, Case No. 2019-Ohio-173 livery IF). Ivery then filed
a petition for writ of certiorari to this Court, which was denied on October, 7, 2019.
See Ivery v. Ohio, 140 S.Ct. 84 (2019).
Ivery also filed an Ohio App.R. 26(B) application for reopening, which was
granted by the appellate court, which was granted on June 13, 2019, and he was again
appointed appellate counsel. The reopened appeal presented four assignments of
error (differing from his original appeal), all of which were overruled by the appellate
court. See State v. Ivery, App. Case No. 28551, 2020-Ohio-3349 (“Ivery IIF). On
appeal of that decision the Ohio Supreme Court again declined to accept jurisdiction.
See State v. Ivery, Case No. 2021-0hio-1201 (Ivery IV’). Ivery now files this timely
petition for writ of certiorari.

1 Under this rule, the Ohio Supreme Court may decline to accept jurisdiction for any
of the following reasons: (a) The appeal does not involve a substantial constitutional
question and should be dismissed; (b) The appeal does not involve a question of great
general or public interest; (c) The appeal does not involve a felony; (d)_The_appeal
Roes involve a felony, but leave to appeal is not warranted.
12

REASONS FOR GRANTING PETITION
Introduction - USCS Supreme Court Rule 10 provides that:
Review on a writ of certiorari is not a matter of right, but of judicial discretion. A
petition for a writ of certiorari will be granted only for compelling reasons. The
following, although neither controlling nor fully measuring the Court’s discretion,
indicate the character of the reasons the Court considers:
(a) a United States court of appeals has entered a decision in conflict with the
decision of another United States court of appeals on the same important
matter; has decided an important federal question in a way that conflicts with
a decision by a state court of last resort; or has so far departed from the
accepted and usual course of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an exercise of this Court’s supervisory
power;
(b) a state court of last resort has decided an important federal question in a
way that conflicts with the decision of another state court of last resort or of a
United States court of appeals;
(c) a state court or a United States court of appeals has decided an important
question of federal law that has not been, but should be, settled by this Court,
or has decided an important federal question in a way that conflicts with
relevant decisions of this Court.
A petition for a writ of certiorari is rarely granted when the asserted error consists
of erroneous factual findings or the misapplication of a properly stated rule of law.
I.

THE COURT SHOULD GRANT THE PETITION BECAUSE PETITIONER
WAS DENIED DUE PROCESS, WHERE THERE WAS INSUFFICENT
EVIDENCE PRESENTED AT TRIAL TO HAVE FOUND HIM GUILTY
BEYOND A REASONABLE DOUBT OF EVERY ESSENTIAL ELEMENT
OF AGGRAVATED MURDER, MURDER, AND ATTEMPTED MURDER.
This Court has long held that “the Due Process Clause [of the 5th and 14th

Amendments to the U.S. Constitution] protects the accused against conviction except
upon proof beyond a reasonable doubt of every fact necessary to constitute the crime
with which he is charged.” In re Winship, 397 U.S. 358 (1970). Thus_the_Due_Process.
13

Clause “forbids a state to convict a person of crime without proving the elements of
the crime beyond a reasonable doubt.” Fiore v. White, 531 U.S. 225 (2001).
“To determine whether a conviction is supported by sufficient evidence, ‘[t]he
relevant inquiry is whether, after viewing the evidence in a light most favorable to
the prosecution, any rational trier of fact could have found the essential elements of
the crime proven beyond a reasonable doubt.’ State v. Jenks, 61 Ohio St.3d 259, 574
N.E.2d 492 (1991), paragraph two of the syllabus, following Jackson v. Virginia, 443
U.S. 307, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979).” State v. Walker, 150 Ohio St. 3d 409
(2016) at 1 12.
Ivery recognizes that “a federal court may not overturn a state court decision
rejecting a sufficiency of the evidence challenge simply because the federal court
disagrees with the state court. The federal court instead may do so only if the state
court was ‘objectively unreasonable.”’ Cavazos v. Smith, 565 U.S. 1 (2011), quoting
Renico v. Lett, 559 U.S. 766 (2010).
Herein, Ivery will establish that the State of Ohio failed to prove beyond a
reasonable doubt every element of the offenses of aggravated murder, murder, and
attempted murder, and that the appellate court’s rejection of Ivery’s sufficiency of the
evidence challenge was objectively unreasonable.
Aggravated Murder
Ivery was found guilty in Count 1 of the aggravated murder of Justin
Winebrenner under O.R.C. § 2903.01(A), which provides that: “No person shall
purposely, and with prior calculation and design, cause the death of another or the

14

unlawful termination of another’s pregnancy.” (Emphasis added.) In order to obtain
a conviction on Count 1 the State of Ohio had to prove beyond a reasonable doubt that
Ivery purposely caused the death of Winebrenner, and that he did so with prior
calculation and design.
O.R.C. § 2901.22(A) defines purposely as follows: “A person acts purposely
when it is the person’s specific intention to cause a certain result, or, when the gist of
the offense is a prohibition against conduct of a certain nature, regardless of what the
offender intends to accomplish thereby, it is the offender’s specific intention to engage
in conduct of that nature.” Applied to the present case, the court instructed the jury
as follows:
“A person acts purposefully when it is his specific intention to cause a
certain result. It must be established in this case that at the time in
question there was present in the mind of the defendant a specific
intention to cause the death of Justin Winebrenner. Purpose is a
decision of the mind to do an act with a conscious objective of producing
a specific result. To do an act purposely is to do it intentionally and not
accidentally...You will determine from those facts and circumstances
whether there existed in the mind of the defendant a specific intention
to cause the death of Justin Winebrenner.” (Tr. 3968-69)
The facts and testimonies presented at trial — including those of the multiple
State’s witnesses - establish there was clearly no evidence of a specific or conscious
intent by Ivery to cause the death of Winebrenner.

Ivery was being physically

accosted by Winebrenner and two other large white men, and only pulled and fired
his gun as he was being knocked back over a table. Ivery never specifically targeted
Winebrenner, but rather struck him inadvertently in the process of wildly firing four
random shots as he was knocked off-balance backwards. If not a case of self-defense,

15

at worst, Ivery acted recklessly, which does not support a conviction for aggravated
murder under O.R.C. § 2903.01(A).
Regarding aggravated murder, the Supreme Court of Ohio has held that, “The
phrase ‘prior calculation and design’ by its own terms suggests advance reasoning to
formulate the purpose to kill. Evidence of an act committed on the spur of the
moment or after momentary consideration is not evidence of a premeditated decision
or a studied consideration of the method and the means to cause a death. The General
Assembly has determined that it is a greater offense to premeditate or to plan ahead
to purposely kill someone.

* * *

Aggravated murder is a purposeful killing that also

requires proof of prior calculation and design: forethought, planning, choice of
weapon, choice of means, and the execution of the plan.” State v. Walker, 150 Ohio
St. 3d 409 (2016) at 1 18, 28.
In overruling Ivery’s sufficiency of evidence challenge, the appellate court
offered the following reasoning:
“The State presented evidence at trial indicating that Mr. Ivery left the
bar after an argument, retrieved a gun, and then returned to the bar
about eight minutes later. Upon his return, he told at least one bar
patron that he was not alone anymore, and lifted his shirt several times
to reveal a gun tucked into his waistband. As [Winebrenner] and other
bar patrons approached him, Mr. Ivery drew the gun from his
waistband. A struggle ensued, and Mr. Ivery fired several shots, two of
which struck [Winebrenner] in the abdomen.”
State v. Ivery, 2020-Ohio-3349 at Tf 11.
The opinion of the appellate court does not agree with the facts of the case (as
provided herein) on several substantive points, and relies on unproven assertions
presented by the State. It is undisputed that.Ivery_left.the.bar.and.returned.about
16

eight minutes later. His given reason for returning was to retrieve an order of wings
that he had left behind earlier. (Tr. 3755, 3763, 3794)
It was the State’s assertion that Ivery only retrieved the gun on his return to
the bar, but did not have it on his person earlier. However, bar patron Ann Marie
Kuzio testified that Ivery informed her he had “a 40” earlier that evening. (Tr. 2406)
Another bar patron, Natalie Linn, testified that, “After the shooting I just put two
and two together not thinking that it was a 40 of beer, thinking that it was a .40caliber.” (Tr. 2904) And indeed, while Ivery did possess a .40 caliber handgun, there
is no evidence that he ever ordered or possessed a 40 ounce beer that night.
Even if the State’s assertion was correct (a point Ivery does not concede), at
least one Ohio appellate court has found that, “The mere fact that defendant was
carrying a gun on this occasion but was not carrying a gun on some earlier visit to a
different bar is not sufficient to demonstrate a prior calculation and design to kill
someone at this bar.” State v. Davis, 8 Ohio App. 3d 205 (8th Dist. 1982). Thus, even
if the State had been able to definitively prove that Ivery did not have a gun on him
earlier in the evening, his possessing a gun upon return into Papa Don’s is not itself
sufficient to prove prior calculation and design.
Next, Ivery does not dispute that he flashed the gun in his waistband several
times to Dave Wokaty upon his return into the bar. However, the appellate court was
manifestly incorrect in opining that Ivery drew his gun as he was approached by any
of the bar patrons. In fact, as testified to by a number of the State witnesses, he did
not draw and fire the gun until after Winebrenner and David Eisele had put their

17

hands on him and, with Wokaty, began pushing Ivery backwards over a table. (Tr.
2474, 2482, 2523-25, 3012-13, 3126-28, 3321, 3347-48, 3386-87)
Furthermore, if Ivery had truly returned to the bar with a premeditated intent
to shoot and kill anyone present, why did he not enter the establishment gun drawn
and immediately firing? Ivery’s actions in drawing his weapon and firing it were
clearly a spur of the moment response to the physical assault he was suffering at the
hands of Winebrenner, Eisele, and Wokaty. See State v. Nelson (8th Dist.), 2017-Ohio5568 at If 34.
At trial, the defense requested a lesser included offense instruction on
voluntary manslaughter under O.R.C. § 2903.03. Under this statute, which bears
resemblance to 18 USCS § 1112, “No person, while under the influence of sudden
passion or in a sudden fit of rage, either of which is brought on by serious provocation
occasioned by the victim that is reasonably sufficient to incite the person into using ,
deadly force, shall knowingly cause the death of another[.]” The request was denied
by the trial court. While that rejection is not at issue here, it is arguable that the
sufficiency of the evidence presented at trial weighs in favor of Ivery having been
convicted of the voluntary manslaughter of Winebrenner, not aggravated murder.
This Court has previously held that “the Due Process Clause requires the
prosecution to prove beyond a reasonable doubt the absence of the heat of passion on
sudden provocation when the issue is properly presented in a homicide case.”
Mullaney v. Wilbur, 421 U.S. 684, 704 (1975). The defense presented at trial should

18

establish that Ivery was acting in the heat of passion and sudden provocation, rather
than with premeditated, purposeful intent.
The facts of the case show that upon reentry to Papa Don’s Ivery was verbally,
then physically, accosted by the three large white men: Winebrenner, Wokaty and
Eisele, who collectively weighed over 400 lbs. (Wokaty alone weighing almost 400
lbs.). Asked why he eventually pulled his gun out, Ivery, who is black, testified it was
“[b]ecause they was reaching and I didn’t want them to get it,” fearing that, “They
wih take it and kill me.” (Tr. 3781, 3864) “I feared that once I was fallen [as he was
pushed by the men back over a table], that’s when my fear hit its highest point and
that’s when I screamed. (Tr. 3783-85) Regarding the four shots subsequently fired,
Ivery testified that he “never aimed. I was falling...I’m falling to the ground when
the first shot is fired...I was scared...! couldn’t see, my glasses is off, and I’m getting
bum rushed and they was trying to get my gun.” (Tr. 3866-67) He added that, “I
wasn’t trying to shoot anyone. I was scared; flat out scared. That’s all, man. There
wasn’t no intention for him or nothing. I was scared. And that’s why I let out that
scream. I was scared.” (Tr. 3869)
“An unlawful killing in the sudden heat of passion -- whether produced by rage,
resentment, anger, terror or fear — is reduced from murder to manslaughter only if
there was adequate provocation, such as might naturally induce a reasonable man in
the passion of the moment to lose self-control and commit the act on impulse without
reflection.” (Emphasis added.) United States v. Frady, 456 U.S. 152 (1982), quoting
Austin v. United States, 382 F.2d 129 (1967). See also United States v. Guyon, 717

19

F.2d 1536 (6th Cir. 1983) (‘“heat of passion’ could include the passion of fear”); McHam
v. State, 2005 OK CR 28 (Court of Criminal Appeals of Oklahoma 2005) (“The fear of
being injured or killed, such as might justify using deadly force in self-defense, is a
kind of ‘passion’ contemplated by the offense of heat-of-passion manslaughter);
McNeil v. Cuyler, 872 F.2d 443 (3rd Cir. 1986) (“If [the killing] was committed under
the influence of an uncontrollable fear of either death or great bodily harm caused by
the circumstances but without the presence of all the ingredients necessary to excuse
the act on the ground of self-defense, the killing is manslaughter and not murder”).
The testimonial evidence presented at trial, by both Ivery and the State
witnesses, should establish that if not acting in self-defense, Ivery was certainly
acting under the strong provocation created by Winebrenner and the other two large
men; an assault that had Ivery fearing for his life. This clearly meets the standard
of voluntary manslaughter - not aggravated murder.
Given the facts and circumstances of this case, it is quite evident that the
requisite elements of “purposeful” intent and “prior calculation and design” necessary
to support Ivery’s conviction for the aggravated murder of Winebrenner did not exist.
Hence, there was insufficient evidence to support a conviction for aggravated murder,
and the appellate court’s overruling of the sufficiency challenge was objectively
unreasonable.
Murder
Ivery was found guilty in Count 2 of the murder of Winebrenner in violation of
R.C. § 2903.02(A). Under this statute, similar to the Count 1 aggravated murder, “No

20

person shall purposely cause the death of another[.]” So here again, for the same
reasoning as it applies to purposeful intent as it related to aggravated murder above,
there was insufficient evidence to find Ivery guilty of the murder of Winebrenner as
charged in Count 2.
Ivery was found guilty in Count 3 of the murder of Winebrenner in violation of
R.C. § 2903.02(B). Again, as argued above, he should have been found guilty of no
worse that voluntary manslaughter. There was insufficient evidence to support a
conviction for either count of murder, and the appellate court’s overruling of the
sufficiency challenge for those counts was likewise objectively unreasonable.
Attempted Murder
Ivery was found guilty in Count 5 of the attempted murder of David Wokaty,
and in Count 6 of the attempted murder of David Eisele, both in violation of O.R.C. §
2903.02(A) and 2923.02.

As such, these counts required the same proof of

“purposeful” conduct as Count 1.

But again, there is no evidence, physical or

testimonial, that Ivery specifically targeted either Wokaty or Eisele. Rather the
evidence indicates that Wokaty was inadvertently struck by one shot, and Eisele was
never harmed at all, as Ivery was - arguably recklessly - wildly firing four random
shots as he was being knocked backwards over a table.
It is notable here that after the State and defense had rested and the parties
were reviewing the proposed jury instructions with the trial court, the State moved
to dismiss Counts 6, 7 and 8, which originally also charged Ivery with the attempted
murder under R.C. § 2903.02(A) and 2923.02 of Jennifer Imhoff, Michael Capes, and

21

Thomas Russell, respectively. (Tr. 3950)

The motion was granted by the court and

the original Counts 6, 7 and 8 were dismissed, and the original Counts 9-18 were
renumbered 6-15. (Tr. 3947-53)
In moving to have the original Counts 6, 7 and 8 dismissed, the State reasoned
that Imhoff, Capes and Russell “were three victims that were clearly off to the side
at the time of the shooting, yet they were all struck in one fashion or another with
the bullet.” (Tr. 3950-51) Yet there is no greater evidence that Ivery was targeting
Wokaty or Eisele (or, for that matter, Winebrenner) than that he was targeting
Imhoff, Capes or Russell. So if in the State’s mind there was insufficient evidence to
prove that Ivery was purposely intending to cause the latter trio’s deaths, then there
was likewise not sufficient evidence of Ivery’s intent to cause the death of Wokaty or
Eisele either.
Significantly, in reviewing the harm done to each of the five individuals above,
records show that Wokaty suffered the most serious injury, having been struck by a
bullet through the arm and torso. (Tr. 2526-27) Eisele was not injured at all. Imhoff
was struck by a bullet in the arm that took a few months to heal. (Tr. 2637-38) Capes
was struck by a bullet in the foot and had to take three months off work. (Tr. 3108,
3113-14) And Russell was only grazed by a bullet that did not even require medical
treatment. (Tr. 2828-31) Thus there is no correlation between the actual harm
suffered by the different victims and which of them Ivery was convicted of attempted
murder. If the sufficiency of evidence was based solely on the harm done to the

22

individual victim, why were the charges of attempted murder against Imhoff and
Capes dismissed, while Ivery was found guilty of the attempted murder of Eisele?
Clearly the dismissal of the attempted murder charges relating to Imhoff,
Capes, and Russell further support Ivery’s argument that there was insufficient
evidence to convict him of the attempted murder of Wokaty and Eisele. This would
also further support Ivery’s argument above that he did not act purposely in causing
the death of Winebrenner.
In overruling Ivery’s sufficiency challenge to these counts, the appellate court
opined that “Mr. Ivery fired his gun in a crowded bar. The bullets struck and/or
grazed several bar patrons. Viewing this evidence in a light most favorable to the
State, we conclude that a rational trier of fact could have found the essential elements
[which would include a purposeful intent to cause death] of attempted murder proven
beyond a reasonable doubt.” Ivery at f 16. Here again, while it in undisputed that
Ivery fired four shots inside a bar, the facts and evidence show that he did so only
after being physically assaulted by three men and knocked backwards over a table.
No reasonable jurist would conclude that this shows a purposeful intent to cause the
death of any of the bar patrons.
So again, there was insufficient evidence to support a conviction for any of the
attempted murder charges, and the appellate court’s overruling of the sufficiency
challenge for those counts was likewise objectively unreasonable.

23

II.

THE COURT SHOULD GRANT THE PETITION BECAUSE THE
PETITIONER WAS- DENIED-DUE PROCESS OF LAW-WHEN THE
TRIAL COURT IMPROPERLY REMOVED PETIT JUROR RON BARNES
WITHOUT SHOWING ADEQUATE CAUSE.
“[T]he Sixth Amendment’s provision for jury trial is made binding on the States

by virtue of the Fourteenth Amendment.” Taylor v. Louisiana, 419 U.S. 522 (1975).
“It is beyond question that the right of trial by jury guaranteed by the constitution
carries with it by necessary implication the right to a trial by a jury composed of
unbiased and unprejudiced jurors.

This right being guaranteed, all courts are

charged with the imperative duty of affording every litigant the opportunity of having
his cause tried by an impartial jury.” Lingafelter v. Moore, 95 Ohio St. 384 (1917).
The Supreme Court of Ohio has held that “the decision to disqualify a juror for
bias is a discretionary function of the trial court. Where a trial court is vested with
such authority, reversal on appeal is justified only if its exercise thereof constitutes
an abuse of discretion.” (Internal citation omitted.) Berk v. Matthews, 53 Ohio St. 3d
161 (1990). In Ohio courts, “The term ‘abuse of discretion’ connotes more than an
error of law or of judgment; it implies that the court’s attitude is unreasonable,
arbitrary or unconscionable.” Id., quoting State v. Adams, 62 Ohio St. 2d 151 (1980).
O.R.C. § 2945.25 provides in relevant part that “[a] person called as a juror in
a criminal case may be challenged for the following causes:
(B) That he is possessed of a state of mind evincing enmity or bias toward the
defendant or the state; but no person summoned as a juror shall be disqualified
by reason of a previously formed or expressed opinion with reference to the
guilt or innocence of the accused, if the court is satisfied, from examination of
the juror or from other evidence, that he will render an impartial verdict
according to the law and the evidence submitted to the jury at the trial[.]”
24

“As long as a trial court is satisfied, following additional questioning of the
prospective juror, that the juror can be fair and impartial and follow the law as
instructed, the court need not remove that juror for cause.” State v. Moss (9th Dist.),
2009-Ohio-3866 at! 11.
Law and Argument
Ivery contends that it was an abuse of discretion for the trial court to remove
petit juror Ron Barnes for cause where it was not proven that he could not be a fair
and impartial juror. During the course of Ivery’s trial it came to the court’s attention
that Barnes had made contact after leaving the courtroom with an individual who
had been present in the jury gallery. Thereafter, outside the presence of the rest of
the jury Barnes was examined by the court. Barnes admitted to approaching an
individual he saw in the gallery in the parking deck outside of the courthouse. (Tr.
2914) His explanation for doing so was that, “It was just somebody that I saw, I saw
them together one time, and I just asked where her friend was. That was all. Wasn’t
no conversation or nothing.” (Tr. 2914) He further explained, “I don’t even know her.
I have no idea what her name is, or I don’t know her at all. I just seen her with the
young lady once and, you know, when we was in the hallway or something. And yeah,
I have no idea who she is, you know, at all.” (Tr. 2914-15) Barnes was subsequently
asked twice by the defense counsel whether this had influenced his ability to be a
fair-minded jurist. Barnes responded, “No, No, No, not at all. No.” (Tr. 2916) “No,
because I had no idea who they were, who, you know, who they was here to see or
nothing like that, you know. No, no, no, nothing at all. Nothing.” (Tr. 2917) Asked

25

if he knew what relationship, if any, either individual had to the case he responded,
“Not at all. No idea.” (Tr. 2917)
Barnes was dismissed from the courtroom after which a discussion was held
between the court, the prosecution and the defense. It was decided that further
questioning of Barnes was necessary. (Tr. 2921) After expressing some forgetfulness
as to which day it was he saw the young woman and which day it was he inquired
about the young woman to the other individual, Barnes determined that he had seen
the two together in the gallery on Tuesday, but only the individual in the gallery on
Wednesday. (Tr. 2924-25) He was then dismissed again.
Thereafter, the court indicated, “That’s problematic.

That’s approaching

somebody that’s in the courtroom knowing they were in the court after I told them
not to.” (Tr. 2926) The prosecution then asked to have Barnes removed for cause.
(Tr. 2927) After the defense strongly objected (Tr. 2928), and further argument was
had, the court offered the following judgment:
“These jurors are honor bound by their oath that they must follow the
instruction of the Court. The Court was so concerned about this that I
actually put them all in writing, I presented orders to them on the first
day, and I had them each sign the orders. They have a written copy of
these orders and they had to sign indicating that they had received
them. And I have reminded them of these orders every single time we
take a break. So in order for the process to have integrity, this Court
must have confidence these jurors are following their oaths. And this
juror has violated the Court’s order about contacting people outside of
the courtroom and he got caught lying to the Court.” (Tr. 2941-42 emphasis added.)

26

But did Barnes truly violate the trial court’s order? A review of the record
shows that entering into the trial’s first recess, the court’s actual instructions to the
jury were as follows:
“I’m going to remind you about all the admonitions regarding this case,
which is you’re not to discuss this case with anyone. You’re not to permit
anyone to discuss it with you or in your presence. You’re not to
investigate this case in any fashion. You are not to make any final
decisions until you’ve heard all the evidence.” (Tr. 2266 - emphasis
added.)
The court’s specific instruction was that the jurors were not to discuss the case
with anybody (nor have it discussed with them).

The court ordered no such

prohibition against a juror speaking with anyone regarding matters de hors the case.
The interview of Barnes by the trial court does not yield any evidence that he ever
discussed anything relating to the case itself with the individual (or anyone else).
The record establishes that Barnes was merely expressing to that individual interest
in a young woman he viewed in the gallery on an earlier day. Further, there is no
evidence Barnes had knowledge of any connection that either the individual or the
other young woman might have had to the defendant Ivery.
Notably, the trial court never actually asked Barnes if after his brief
conversation with the individual outside the courtroom he could remain impartial.
The court’s failure to ask such an important follow-up question certainly does not
create the presumption that Barnes could not be fair and impartial. Conversely,
Barnes did reassure the court that he could be fair and impartial in answering the
question posed by defense counsel over whether he would be influenced by his brief
conversation with the individual. (Tr. 2916-17)
27

As for the trial court’s opinion that Barnes had got caught lying and was not
following his oath to the court (i.e. “the law”), this is an unsubstantiated conclusion.
That Barnes expressed some confusion during questioning (which could easily have
been perceived by him as an interrogation) can be attributed to nervousness and some
level of forgetfulness - not any intentional deception. Barnes was not caught in any
outright lies and openly admitted speaking to the individual he had viewed in the
courtroom. And as demonstrated above, Barnes did abide by the specific instruction
given by the court not to discuss the case with any other individuals.
Thus applying the standard of Moss, here the trial court had no justifiable
reason not to be satisfied that Barnes could follow the law and continue the trial as a
fair and impartial juror. Consequently, removing him for cause was both arbitrary
and unreasonable. For this cause, Ivery’s convictions in the present case must be
vacated and the matter remanded for a new trial.
On appeal, the appellate court concluded that “as the trial court made clear on
the record, the trial court removed the juror for cause on the basis that the juror
violated its admonition to not communicate with anyone in the courtroom, and then
lied to the court about doing so. Under these facts, this Court cannot say that the
trial court abused its discretion when it removed the juror at issue for cause.” Ivery
at f 27. Yet, as established above, Barnes did not violate the specific admonition of
the trial court; nor was it proven that he could not be fair and impartial. Thus, the
appellate court’s overruling of the juror removal challenge was objectively
unreasonable

28

CONCLUSION
The Petition for Writ of Certiorari should be granted review due to the grounds
presented herein, which demonstrate clear due process violations relating to
convictions that are against the sufficiency of evidence and a petit juror removed
without good cause.
Wherefore, the Petitioner, Kenan Ivery, humbly prays this Honorable Court
will grant his petition and allow further review of the issues raised herein.
Respectfully submitted,

Date:

/ 5T

2021
Kenan Ivery, #A674-145
Trumbull Correctional Institution
P.O. Box 901
Leavittsburg, Ohio 44430-0901
Petitioner, pro se

29

